December 14, 2009

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 Financial Installation Audits – Post Offices,
         Stations, and Branches (Report Number FF-AR-10-045)

This report presents the results of our financial installation audits of 105 post offices,
stations, and branches for fiscal year (FY) 2009 (Project Number 09BD001FF000). We
conducted this work in support of the audit of the U.S. Postal Service’s financial
statements. Our overall objectives were to determine whether financial transactions of
field operations were reasonably and fairly presented in the accounting records and
whether internal controls were in place and effective. Appendix A presents additional
information about this audit.

Conclusion

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. Appendix B lists each issue reported during FY 2009 and
the number of units where the issue was also reported in FYs 2007 and 2008. We
identified three locations where controls, overall, were not effective and nine additional
locations where major segments of internal controls were not effective. Additionally, we
reported $1.5 million in monetary and $23 million in non-monetary impact at the
individual locations.1

We made recommendations to district management addressing internal control and
compliance issues at each installation audited. District management’s comments to the
individual reports were responsive to the findings and recommendations reported. The
actions taken or planned should correct the issues identified at these installations.2
Appendix C lists the 105 installations we audited.

We changed the audit objective for our FY 2010 financial installation audits to evaluate
only the key financial reporting controls consistent with the criteria developed for
evaluating Sarbanes-Oxley Act of 2002 compliance. We identified nine key financial
1
  During our audits, we also observed compensating controls. These compensating controls allowed us to conclude
that, overall, internal controls were in place and effective.
2
  Additionally, at 48 of the sites audited, we referred situations that warranted further examination to the U.S. Postal
Service Office of Inspector General (OIG) Office of Investigations.
Fiscal Year 2009 Financial Installation Audits –
 Post Offices, Stations, and Branches                                       FF-AR-10-045


reporting controls relating to accountability examinations, master trust accounts,
employee items, financial differences, unit closeout procedures, payroll, Voyager
(eFleet) payments, SmartPay payments, and contract postal unit oversight. In FY 2010,
we will determine whether statistically selected post offices complied with these
controls.

Management’s Comments

We discussed our observations and conclusions with management on
December 4, 2009. As we are not making recommendations in this report,
management determined there was no need to provide formal comments.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc: Joseph Corbett
    Dean J. Granholm
    Julie S. Moore
    Steven R. Phelps
    Sally K. Haring




                                                   2
Fiscal Year 2009 Financial Installation Audits –                                FF-AR-10-045
 Post Offices, Stations, and Branches


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service Office of Inspector General (OIG) conducts financial field audits
at post offices and business mail entry units. We conduct these audits in support of the
independent public accounting firm’s overall audit opinion on the Postal Service’s
financial statements.

Post offices, which include 32,000 main offices, stations, and branches, are postal retail
units where the Postal Service initially recognizes revenue from operations. During FY
2009, the Postal Service recognized $17.9 billion in retail revenue. Financial activities
at these installations include, but are not limited to, post office box and caller service,
money orders, payments, and postage sales. Field unit managers and supervisors are
responsible for ensuring that employees collect all revenue due the Postal Service,
account for revenue in a timely manner, and maintain the required supporting
documentation.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objectives were to determine whether financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish these objectives, we conducted unannounced audit fieldwork at
105 statistically selected post offices, stations, and branches (units). We employed a
stratified random sample from a population of 23,411 units with revenue of more than
$50,000. These 105 units reported $362 million in revenue in FY 2008. Appendix C
lists the locations we audited.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether the internal control structure over financial reporting and
safeguarding of assets was implemented and functioning as designed.

We conducted this audit from October 2008 through December 2009 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes obtaining a sufficient understanding of internal controls to plan the audit and




                                                   3
Fiscal Year 2009 Financial Installation Audits –                              FF-AR-10-045
 Post Offices, Stations, and Branches


determine the nature, timing, and extent of audit procedures to be performed. We
supported the external auditors in obtaining reasonable assurance about whether the
financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
generally accepted government auditing standards may not detect a material
misstatement. However, the external auditors and the OIG are responsible for ensuring
that Postal Service officials are aware of any significant deficiencies that come to our
attention.

We discussed our observations and conclusions with management on
December 4, 2009, and included their comments where appropriate. Additionally, we
issued individual reports at each unit audited and made recommendations to district
management addressing those findings. District management’s comments to the
individual reports were responsive to our findings and recommendations and the actions
taken or planned should correct the issues identified at these installations. We traced
recorded financial transactions to and from supporting documentation and assessed the
reliability of computerized data by verifying the computer records to source documents.

PRIOR AUDIT COVERAGE

We evaluated all findings from reports previously issued at FY 2009 audit sites for
FYs 2006 through 2008. We reported the status of the recommendations in each of
the installation reports issued. Additionally, we issued three capping reports for
FYs 2006 through 2008 summarizing our installation-level audits.

              Report Title                         Report Number   Final Report Date
Imprudent Purchases and Management
Instruction on Expenses for Internal and            FF-AR-10-025    December 3, 2009
External Events
Management Advisory – Imprudent
Spending Using the SmartPay® Purchase               FF-MA-09-002    January 20, 2009
Card
Capping Reports
Fiscal Year 2008 Financial Installation
Audit – Post Offices, Stations, and                 FF-AR-09-055   December 26, 2008
Branches
Fiscal Year 2007 Financial Installation
Audit – Post Offices, Stations, and                 FF-AR-08-122      March 5, 2008
Branches
Fiscal Year 2006 Financial Installation
Audit – Post Offices, Stations, and                 FF-AR-07-094    February 20, 2007
Branches




                                                     4
Fiscal Year 2009 Financial Installation Audits –                                                        FF-AR-10-045
 Post Offices, Stations, and Branches


              APPENDIX B: CONTROL DEFICIENCIES AND THE FREQUENCY
                             THEY WERE REPORTED3

                                                                                   Number of Sites with Control
                  Description of Control Deficiency4                                      Deficiencies
    (Bolded items represent tests pertaining to the nine key SOX controls we                                           5
                           will evaluate in FY 2010)                             FY 2009      FY 2008      FY 2007
STAMP, CASH, AND MONEY ORDER ACCOUNTABILITIES
The unit did not ensure employees prepared or fully completed
                                                                                    39           42            44
duplicate key envelopes.
The unit did not conduct timely examinations of unit cash
                                                                                    37           39            34
reserve accountabilities.
The unit allowed retail floor stock to exceed the authorized limit.                 37           47            42
The unit did not verify or document at least annually that an
                                                                                    35           39            44
employee's accountability keys did not open another's accountability.
The unit did not restrict access to Postal Service information
                                                                                    34           28            24
resources to authorized employees.
The unit did not destroy or return obsolete money orders.                           19           11            6
The unit did not verify that locks and combinations were changed.                   19           16            16
The unit did not limit employees' access to the unit cash reserve.                  18            8            16
The unit did not conduct timely examinations of unit reserve
                                                                                    18           18            20
stamp accountabilities.
Retail associates kept booklets of Postal Service (PS) Forms 1096,
                                                                                    18          N/A           N/A
Cash Receipt, at the retail window area.
The unit did not secure retail floor stock.                                         17           21            13
The unit allowed the cash reserve to exceed the authorized limit.                   16           10            13
The unit did not witness accountability examinations, as
                                                                                    15            6            7
required.
The unit did not conduct timely examinations of cash retained
                                                                                    14           52            59
accountabilities.
The unit did not prevent sales associates from exceeding the
                                                                                    13           12            6
authorized cash retained limit.
Unit employees did not secure cash and stamp credits.                               13           16            5
The unit did not ensure cash or stamp credits were kept separate
                                                                                    12            4           N/A
from other accountable credits.
The unit did not close inactive credits.                                            11           33            33
The unit did not secure money orders.                                               11           8              6
The unit did not ensure that all accountabilities were listed on the
                                                                                    10            1            3
clerk’s balance list or manual accountability recap sheet.
The total office accountability exceeded the authorized limit.                      10           26            14
The unit did not secure duplicate keys.                                             10           10            12
The unit did not ensure that all money orders were inventoried.                      9           11             9


3
  We reported compliance issues, but we also observed compensating controls. These compensating controls
allowed us to conclude that, overall, internal controls were in place and effective.
4
  In FY 2010, we will determine whether statistically selected post offices complied with nine key SOX financial
reporting controls. The 21 bolded items represent those sub-controls we will continue to test in FY 2010 that relate
to the nine key SOX financial reporting controls. We will provide quarterly results to Postal Service Headquarters.
5
  Comparative data for items shown as N/A is not available. These items were not evaluated in prior FYs, are
summarized in categories different than those used in FY 2009, or had no findings reported in FY 2007 or FY 2008.




                                                           5
Fiscal Year 2009 Financial Installation Audits –                                                            FF-AR-10-045
 Post Offices, Stations, and Branches

                                                                                      Number of Sites with Control
                  Description of Control Deficiency4                                         Deficiencies
    (Bolded items represent tests pertaining to the nine key SOX controls we                                               5
                             will evaluate in FY 2010)                              FY 2009       FY 2008        FY 2007
The unit reserve custodian did not secure unit reserve stock.                           9           10             13
The unit did not prevent employees from storing personal funds with
                                                                                        7            2              6
Postal Service funds.
The unit did not conduct timely examinations of individual stamp
                                                                                        7            7              9
credits.
The unit did not secure cash, stamps, or other accountable items.                       7            9              2
The unit did not remit all funds from retail operations.                                7            4              5
The unit did not record all financial transactions.                                     6            5              5
The unit did not conduct timely examinations of consigned rural route
                                                                                        6            3             N/A
stamp credits.
The unit did not document credit examination results on PS Form
                                                                                        5           14             41
3368, Stamp Credit Examination Record.
The unit did not properly document, execute, or record stock
                                                                                        5            5              4
transfers.
The unit did not conduct timely examinations of vending
                                                                                        5            3              8
accountabilities.
The unit did not always post overages and shortages.                                    4            5              8
The unit did not properly document credit examination results on PS
Form 3294, Cash and Stamp Stock Count and Summary, or retain                            3            7             44
the forms.6
The unit did not secure vending accountabilities.                                       3            2              3
The unit did not follow proper vending procedures.                                      2            6              7
The unit did not return Paymaster money order imprinters when the
                                                                                        1            1             N/A
POS system was installed.
The unit did not complete or retain PS Forms 17, Stamp
                                                                                        1            2              4
Requisition/Stamp Return, to document an internal stock transfer.
The unit used vending funds to make change.                                             1            6              6
FINANCIAL ACCOUNTING AND REPORTING
The unit did not monitor and resolve financial differences.                            56           31             38
The unit did not monitor advance deposit accounts for
                                                                                       37           36             39
inactivity.
The unit did not follow closeout procedures.                                           33           23             25
The unit did not properly prepare bank deposits.                                       27           37             42
The unit did not review completed PS Forms 5659, Daily Passport
                                                                                       27           27             N/A
Application Transmittal.
The unit did not monitor employee items or promptly clear
                                                                                       17           18             34
them.
The unit did not secure completed passport applications and the
                                                                                       12           11             N/A
daily transmittal before mailing them.
The unit did not monitor or reconcile master trust account
                                                                                       10            9             14
balances.
The unit did not properly operate the postage validation
                                                                                       10           16             12
imprinter or make adjusting entries.
The unit did collect all business reply mail (BRM) revenue.                             8            5              9


6
    In December 2007, we stopped testing this control at retail units with the POS financial reporting system.




                                                             6
Fiscal Year 2009 Financial Installation Audits –                                                           FF-AR-10-045
 Post Offices, Stations, and Branches

                                                                                     Number of Sites with Control
                  Description of Control Deficiency4                                        Deficiencies
    (Bolded items represent tests pertaining to the nine key SOX controls we                                              5
                           will evaluate in FY 2010)                               FY 2009       FY 2008       FY 2007
The unit did not have current versions of PS Forms 8105-A, Funds
                                                                                       8             0                0
Transaction Report, and 8105-B, Suspicious Transaction Report.
The unit did not ensure passport revenue was collected or reported.                    6             2           N/A
The unit did not maintain a PS Form 8105-A tracking log.                               2             0            0
The unit retained copies of completed PS Forms 8105-A and
                                                                                       2             0                0
8105-B.
The unit did not obtain BRM annual fee payment receipts from BRM
                                                                                       1             2                1
agents.
Retail associates did not properly complete and submit PS Forms
                                                                                       1             3                6
8105-A.
The unit did not separate passport acceptance and review duties.                       1             1           N/A
POST OFFICE BOXES AND CALLER SERVICE
The unit did not close or block post office boxes for customers who
                                                                                      13            19            10
did not pay their fees.
The unit did not adequately separate post office box duties.                           9            13            13
The unit did not keep the Web Box Activity Tracking System up to
                                                                                       4             8                7
date.
The unit did not properly collect caller service fees for customers with
                                                                                       4             3                3
caller service.
The unit maintained PS Form 1091-A, Post Office Box Register,
even though the unit has used the Web Box Activity Tracking System                     4           N/A           N/A
for over 2 years.
PAYROLL
The unit did not complete or maintain PS Forms 1723,
                                                                                      26             9                4
Assignment Order, to support higher-level authorization.
The unit did not have adequate documentation to support payroll
                                                                                      19            25            23
transactions.
Management did not post the correct codes for employee leave in
                                                                                       1             0                0
the Time and Attendance Collection System.
Management did not ensure employees were paid at the correct
                                                                                       1             0                0
level.
PAYMENTS
The unit did not verify disbursement transactions were
                                                                                      32            37            34
supported.7
The unit did not update the master personal identification
                                                                                      23            25            19
number (PIN) list for the Voyager fleet credit card.
The unit did not secure the Voyager master PIN list.                                  11            5             10
The unit did not keep receipts to support Voyager transactions.                       6             14            8
The unit did not properly reconcile monthly Voyager purchases.                        6             6             5
The unit did not use the preferred purchasing method for
                                                                                       5             1           N/A
purchases.
The cardholder did not create requisitions through eBuy’s
online requisition and approval feature before making                                  2             6                4
purchases.


7
  In addition to our installation audits, as part of the OIG’s continuous auditing efforts, we conducted judgmental
testing of SmartPay and Voyager purchases.




                                                            7
Fiscal Year 2009 Financial Installation Audits –                                                FF-AR-10-045
 Post Offices, Stations, and Branches

                                                                             Number of Sites with Control
               Description of Control Deficiency4                                   Deficiencies
 (Bolded items represent tests pertaining to the nine key SOX controls we                                    5
                         will evaluate in FY 2010)                          FY 2009   FY 2008      FY 2007
The SmartPay Purchase Card approving official did not verify,
                                                                              2           8           10
sign, and date the credit card statements within the time limit.
The unit did not properly record receipts or disbursement accounts.           1           3           1
The unit did not properly process postage refunds and exchanges.              1           2           1
The unit did not properly assign Voyager PINs.                                1           3           3
The unit did not ensure that SmartPay Purchase Card
cardholders reviewed, signed, dated, and forwarded the card                   1          10           8
statements to the approving official within the time limit.
BUSINESS MAIL ACCEPTANCE
Management did not verify that retail associates completed all
                                                                              4           4           1
applicable sections on business mailer postage statements.
The unit accepted business mailings from a customer without
                                                                              4           1           1
verifying the customer paid the annual mailing fee.
The unit did not ensure it collected all business mail revenue.               3           1           1
The unit did not verify the mailer’s sections of the postage statement
                                                                              3           1          N/A
were completed.
The unit did not complete all sections of the postage statements after
                                                                              2           2          N/A
mail acceptance.
The unit did not record business mail postage statements upon mail
                                                                              1           3          N/A
acceptance.
The unit did not verify that mailers used the correct version of mailing
                                                                              1           9           2
statements.




                                                        8
Fiscal Year 2009 Financial Installation Audits –                                                      FF-AR-10-045
 Post Offices, Stations, and Branches


        APPENDIX C: POST OFFICES, STATIONS, AND BRANCHES AUDITED
                     AND REPORTS ISSUED NATIONWIDE

                                                                FY 2008            Monetary          Non-Monetary
                Report Title and Number                         Revenue             Impact8            Impact9
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  1     xxxxxxxxxxxxxxxxxxxxxxxxxx                             $29,772,337                $6,282                    —
        xxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  2                                                              17,321,407             213,499           $1,440,000
        xxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
  3                                                              17,235,775               24,537                5,833
        xxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
  4                                                              17,186,117               53,825                    —
        xxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  5                                                              17,071,212                    —                1,642
        xxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  6                                                              12,361,684                9,651             232,356
        xxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
  7                                                              11,930,381                    —             602,052
        xxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxx,
  8                                                              11,146,775             328,107              160,678
        xxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
  9                                                               9,623,323               66,639             297,113
        xxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 10                                                               9,206,258               27,078                    —
        xxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 11                                                               9,187,411                4,969              84,909
        xxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxx
 12                                                               8,767,548                8,495             148,748
        xxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
 13                                                               8,034,750                7,725             998,022
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 14                                                               7,381,725                7,420              73,812
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxx,
 15                                                               7,286,900               42,055              24,515
        xxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
 16                                                               7,235,750               66,446             752,285
        xxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
 17                                                               7,128,682                    —             528,331
        xxxxxxxxxxxxxxxxxxxxxxxxxxxx



8
  Depending on the specific nature of the findings involved, we reported these amounts as recoverable questioned
costs, unrecoverable questioned costs, funds put to better use, unrecoverable revenue, or recoverable revenue.
9
  Depending on the specific nature of the findings involved, we reported these amounts as assets at risk, accountable
items at risk, or disbursements at risk.




                                                          9
Fiscal Year 2009 Financial Installation Audits –                                     FF-AR-10-045
 Post Offices, Stations, and Branches


                                                        FY 2008      Monetary       Non-Monetary
               Report Title and Number                  Revenue       Impact8         Impact9
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
 18                                                     $6,931,584       $8,308            $4,613
       xxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 19                                                      6,774,043        6,410         1,697,451
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx –
 20                                                      6,659,934      120,272            18,500
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxl,
 21                                                      6,534,494        5,839            27,608
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 22                                                      6,296,445        7,544            41,128
       xxxxxxxxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 23                                                      6,246,762        3,939           306,250
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 24                                                      6,124,499       14,550               997
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx–
 25                                                      5,764,666       15,517                —
       xxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 26    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,                 5,477,272              —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 27                                                      5,417,102       14,943            33,474
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 28                                                      5,317,542              —          66,125
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 29                                                      4,897,332              —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 30                                                      4,269,286              —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxx
 31                                                      3,081,515        9,403           329,038
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 32                                                      3,075,351        2,509             3,847
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxx,
 33                                                      2,947,403       11,299            19,743
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxx,
 34                                                      2,662,395       91,333             1,620
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 35                                                      2,613,920              —          40,551
       xxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 36                                                      2,401,823       51,370                —
       xxxxxxxxxxxx




                                                   10
Fiscal Year 2009 Financial Installation Audits –                              FF-AR-10-045
 Post Offices, Stations, and Branches



       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                                        $2,368,400   $7,978       $154,218
 37    xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 38                                                      2,317,872   12,862         72,944
       xxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 39                                                      2,236,328       —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxx,
 40                                                      2,074,409       —              —
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 41                                                      2,040,606       —          69,021
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 42                                                      1,905,083    7,560        675,908
       xxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 43                                                      1,825,363    1,375        365,002
       xxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 44                                                      1,823,226       —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxx,
 45                                                      1,795,487       —         311,178
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 46                                                      1,692,400    3,648         46,339
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxI,
 47                                                      1,688,945   26,833          3,119
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 48                                                      1,673,183       —          55,681
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 49                                                      1,650,557    5,941          6,747
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 50                                                      1,649,002   10,220         68,635
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 51                                                      1,610,018       —              —
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 52                                                      1,606,406    8,557      1,828,051
       xxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 53                                                      1,599,302    6,750        135,870
       xxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 54                                                      1,573,293    1,284        144,400
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 55                                                      1,460,773   24,245      1,698,243
       xxxxxxxxxxxxx




                                                   11
Fiscal Year 2009 Financial Installation Audits –                               FF-AR-10-045
 Post Offices, Stations, and Branches



       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 56                                                     $1,448,344    $9,943       $394,305
       xxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 57                                                      1,320,968        —           9,700
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 58                                                      1,273,131    39,407        668,800
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 59                                                      1,143,514     2,787             —
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 60                                                      1,142,088     2,052        472,559
       xxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 61                                                      1,120,925     2,285        414,198
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 62                                                      1,112,810     3,636          2,447
       xxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 63                                                       968,965      1,301         12,348
       xxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 64                                                       959,225     39,491      3,315,983
       xxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 65                                                       951,551         —         126,022
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 66                                                       935,300      1,300         48,756
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 67                                                       898,516      5,570      1,019,614
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 68                                                       847,427         —              —
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 69                                                       830,111         —              —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 70                                                       828,954      1,665         37,372
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 71                                                       784,688         —          34,298
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 72                                                       749,050      7,294        165,747
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 73                                                       743,481         —          61,387
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 74                                                      $724,772         —         $71,317
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 75                                                       695,014    $19,393         56,858
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 76                                                       694,951         —              —
       xxxxxxxxxxxx




                                                   12
Fiscal Year 2009 Financial Installation Audits –                          FF-AR-10-045
 Post Offices, Stations, and Branches


       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 77                                                     617,340     —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 78                                                     603,731     —            5,044
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 79                                                     575,977   1,797         22,864
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 80                                                     479,380     —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 81                                                     432,838     —            4,747
       xxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 82                                                     320,687   4,609      2,407,845
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxx,
 83                                                     293,238     —            2,148
       xxxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 84                                                     283,762     —            1,764
       xxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 85                                                     247,543     —               —
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 86                                                     245,343    950           9,825
       xxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 87                                                     193,398     —           60,593
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 88                                                     172,251     —               —
       xxxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 89                                                     163,342     —               —
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 90                                                     162,482     —            1,741
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxx,
 91                                                     158,816     —            1,435
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 92                                                     156,542   1,442          1,555
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 93                                                     156,458     —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 94                                                     135,373     —               —
       xxxxxxxxxxxxx




                                                   13
Fiscal Year 2009 Financial Installation Audits –                                    FF-AR-10-045
 Post Offices, Stations, and Branches



       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 95                                                        $129,832       $1,747              —
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxx
 96                                                         114,007           —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 97                                                         109,653           —           $1,448
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 98                                                          92,460           —               —
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxx,
 99                                                          88,644           —               —
       xxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 100                                                         82,264           —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 101                                                         76,843           —               —
       xxxxxxxxxxxxx
       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
 102                                                         76,475           —               —
       xxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 103                                                         65,300           —               —
       xxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
 104                                                         65,064           —               —
       xxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxe,
 105                                                         59,967           —               —
       xxxxxxxxxxxx

                            Totals                      $362,494,851   $1,493,886    $23,009,317




                                                   14
